U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Big Times Vapes, Inc., et al. v. Food and Drug Administration, et al,
S.Ct. No. 20-850

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
16, 2020, and placed on the docket on December 28, 2020. The government’s response is due on
January 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0886
MCCOY, THELMA G.
UNITED STATES OF AMERICA

KELSI BROWN CORKRAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHINGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM

